@OCKLE

; ~Mail Ad 2
Legal Briefs E-Mail Address:

contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

Est, 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 19-181
LANCE PATTERSON,
Petitioner,
Vv.
INDIANA FAMILY AND
SOCIAL SERVICES ADMINISTRATION,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the REPLY BRIEF in the above
entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b), being
prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this
brief contains 1745 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),

as needed.

Subscribed and sworn to before me this 2 Ist day of November, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE ‘
Sanera Notey . Mitte 4K Chk
State of Nebraska ,

Notary Public Affiant 39027

My Commission Expires Nov 24, 2020

 
